HHS/OIG, Audit - "Review of CareFlites Evacuee Medical Transportation
Contract," (A-06-07-00009)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of CareFlites Evacuee Medical Transportation Contract," (A-06-07-00009)
June 27, 2007
Complete
Text of Report is available in PDF format (1.23 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
As part of its relief operations in response to Hurricanes
Katrina and Rita, HHS contracted with CareFlite to arrange transportation for
all returning evacuees requiring en route medical care.  OIGs review found that
$3,661,154 of the $5,708,508 that CareFlite billed to HHS was allowable.  The
remaining $2,047,354 did not fully comply with the contract terms because
CareFlite did not always arrange the most economical transportation or the
transportation mode selected by discharge planners and documented on patient
medical necessity forms.
OIG recommended that CareFlite (1) work with
the HHS contracting officer to determine the allowability of the $1,978,513 in
costs billed without having determined the most economical transportation, (2)
ensure that future transports are arranged in the most economical fashion, (3)
refund $68,841 to HHS for the excess costs resulting from arranging transports
at a higher level of care than was medically necessary, and (4) ensure that
future transports are arranged using the transportation modes indicated on the
medical necessity forms.  CareFlite disagreed with these recommendations.